     Department of Homeland Security

     ��������������������������



 FEMA Should Recover $951,221 of Public Assistance 

Grant Funds Awarded to Palm Beach County, Florida – 

                Hurricane Jeanne 





DA-13-24                                   July 2013

                                     OFFICE OF INSPECTOR GENERAL
                                          f)"'partmenl of Homeland Security



                                               JU L 1 0 20'13

MEMORANDUM FOR:                      Major P. (Phil) May

                                                                           ,         "o,

FROM:
                                     Assistant I ecto    neral
                                     Office of mergency Management Oversight

SUBJECT:                             FEMA Should Recover $951,221 of Public Assistance
                                     Grant Funds Awarded to Palm Beach County, Florida-
                                     Hurricafle Jeonne
                                     FEMA Disaster Number 1561-DR-H
                                     Audit Report Number DA-13-24

We audited Public Assistance grant funds awarded to Palm Beach County, Florida (County) (FIPS
Code 099-99099-00). Our audit objective was to determine whether the County accounted for
and expended Federal Emergency Management Agency (FEMA) funds according to Federal
regulations and FEMA guidelines.

The County received a Public Assistance grant award totaling $47.9 million from the florida
Division of Emergency Management (State), a FEMA grantee, for damages resulting from
Hurricane Jeanne, which occurred in September 2004. The award provided 100 percent FEMA
funding for the first 72 hours of emergency protective measures and debris removal activities,
and 90 percent funding thereafter for these two activities. The award also provided 90 percent
FEMA funding for permanent repairs to buildings, roads, and recreational facilities. The award
consisted of 63 large projects and 173 small projects.'

We audited 14 large projects and 1 small project with awards totaling $29.2 million (see Exhibit,
Schedule of Projects Audited) for debris removal, emergency protective measures, and
permanent repairs to buildings and recreational facilities. We limited our review of small
projects to determining whether the County (1) completed the projects and (2) received
duplicate benefits for the projects. The audit covered the period from September 24, 2004, to
March 7, 2013, during which the County claimed $17.0 million of FEMA funding under the
projects reviewed. At the time of our audit, the County had completed work on all large
projects included and had submitted a final claim to the State for all project expenditures.


1 Feder.1 r"gul~tion' in efle<t at th ~ ~m~ of the di<aster ",t th . lar~e project thre'hold at $54,100.
                        OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


We conducted this performance audit between July 2012 and April 2013 pursuant to the
Inspector General Act of 1978, as amended, and according to generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based upon our audit objective. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based upon our audit objective. To conduct this audit, we
applied the statutes, regulations, and FEMA policies and guidelines in effect at the time of the
disaster.

We judgmentally selected project costs (generally based on dollar value); interviewed County,
State, and FEMA personnel; reviewed the County’s procurement policies and procedures;
reviewed applicable Federal regulations and FEMA guidelines; and performed other procedures
considered necessary to accomplish our audit objective. We did not assess the adequacy of the
County’s internal controls applicable to its grant activities because it was not necessary to
accomplish our audit objective. However, we gained an understanding of the County’s method
of accounting for disaster-related costs and its policies and procedures for administering
activities provided for under the FEMA award.


                                       RESULTS OF AUDIT

FEMA should recover $951,221 (Federal share $859,074) of grant funds awarded to the County.
The County did not account for projects on a project-by-project basis as required by Federal
regulations and FEMA guidelines. In addition, the County’s claim included $951,221 of
questionable costs, as follows:

       $416,529 of contract costs that were not supported by adequate documentation;

       $461,366 of ineligible project costs;

       $49,560 of duplicate benefits for debris removal activities; and 

       $23,766 of ineligible administrative costs. 


Finding A: Grant Accounting

The County did not account for large projects on a project-by-project basis. According to 44
Code of Federal Regulations (CFR) 13.20(a)(2), fiscal control and accounting procedures of a
State and its subgrantees must be sufficient to permit the tracing of funds to a level of
expenditures adequate to establish that such funds have not been used in violation of the
restrictions and prohibitions of applicable statutes. Further, 44 CFR 206.205(b) requires that
large project expenditures be accounted for on a project-by-project basis.


www.oig.dhs.gov                                                                          DA-13-24
                                                2

                        OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


The County initially set up FEMA disaster-account codes to capture disaster costs. However, it
recorded very little expenditure in the accounts. Instead, the County commingled nearly all
disaster-related receipt and expenditure transactions with nondisaster transactions in its
general accounts, with no separate accounting establishing project balances, receipts, or
expenditures. As a result, we could not readily identify and trace total costs claimed under
each individual project to supporting documentation without direct assistance from County
officials.

County officials disagreed that project expenditures were not recorded separately in the
County’s accounting system. However, the evidence supports our finding.

Finding B: Supporting Documentation

The County’s claim included $416,529 of contract charges under Projects 5296 and 4597 that
were not supported by adequate documentation. Cost principles at 2 CFR 225, Cost Principles
for State, Local, and Indian Tribal Governments, Appendix A, Section (C)(1)(j), state that a cost
must be adequately documented to be allowable under federal awards. We question the
$416,529, as follows:

       The County claimed $4,529,860 of contract labor charges under Project 5296 for debris
       monitors, based on hourly labor rates. However, it did not have time and attendance
       records to support $294,123 of the contract charges. Therefore, we question the
       $294,123.

       The County claimed $459,151 of contract charges under Project 4597 for debris removal
       activity at a temporary disposal and reduction site. Based on our review of adjusted
       contractor invoices agreed upon by the County and the contractor, the County actually
       paid the contractor a net amount of $336,745, or $122,406 less than the amount
       claimed. The difference occurred because a FEMA inspector used the original invoices
       rather than the adjusted invoices to determine eligible project costs at project closeout.
       We question the $122,406.

County officials disagreed with this finding, saying that they would review their project files and
provide supporting documentation to FEMA to show that the costs are eligible.




www.oig.dhs.gov                                                                           DA-13-24
                                                 3

                        OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

Finding C: Contracting Procedures

The County did not comply with Federal procurement requirements when awarding a contract
valued at $461,366 for repairs to the County Courthouse and Roger Dean Stadium. According
to Federal regulations at 44 CFR 13.36, the County is required to, among other things—

       Conduct all procurement transactions in a manner providing full and open competition.
       Noncompetitive procurement may be used under certain circumstances, one of which is
       when public exigency or emergency will not permit a delay resulting from competitive
       solicitation. (44 CFR 13.36(c)(1) and 44 CFR 13.36(d)(4)(i)(B).

       Perform a cost or price analysis in connection with every procurement action, including
       contract modifications, to determine the reasonableness of the contractor’s proposed
       price. (44 CFR 13.36(f)(1))

       Use time and materials contracts only after a determination that no other contract is
       suitable and that the contract contains a ceiling price that the contractor exceeds at its
       own risk. (44 CFR 13.36(b)(10)(1) & (11))

       Use an appropriate method of contracting other than cost plus a percentage of cost,
       which is not eligible. (44 CFR 13.36(f)(4))

In addition, FEMA’s Public Assistance Guide (FEMA 322, October 1999, pp. 39–40) specifies
that—

       Contracts must be of reasonable cost, generally must be competed, and must comply
       with Federal, State, and local procurement standards.

       Noncompetitive proposals should be used only when the award of a contract is not
       feasible under small purchase procedures, sealed bids, or competitive proposals, and
       one of the following circumstances applies: (1) the item is available only from a single
       source, (2) there is an emergency requirement that will not permit a delay for
       competition, (3) FEMA authorizes noncompetitive proposals, or (4) solicitation from a
       number of sources has been attempted and competition is determined to be
       inadequate. (44 CFR 13.36(d)(4)(i))

FEMA may grant exceptions to Federal procurement requirements to subgrantees on a case-by­
case basis (44 CFR 13.6(c)).




www.oig.dhs.gov                                                                           DA-13-24
                                                4

                        OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

Using the County’s emergency contracting procedures, the County hired two contractors under
noncompetitive contracts to repair damages to the County Courthouse (Project 5211) and to
provide professional planning and management services for repairs to Roger Dean Stadium
(Project 5010). The County claimed contract costs of $212,677 and $248,689 under Projects
5211 and 5010, respectively. While exigent circumstances warranted the use of
noncompetitive proposals, the County did not perform a cost or price analysis on the
contractors’ proposed prices and awarded one contract as a time and materials contract and
the other as a cost plus percentage of cost contract, a contracting method strictly prohibited by
Federal regulations. Because of the County’s improper procurement actions, FEMA has no
assurance that the contract costs are reasonable. Therefore, we question the $461,366 of costs
claimed for the improper contracts.

County officials disagreed with this finding. They said that FEMA approved their existing
maintenance and repairs agreement with these contractors. They also said that they would
provide supporting documentation to FEMA to show that the contract costs are eligible.

Finding D: Duplication of Benefits

The County’s claim included $49,560 of debris removal activities funded by the Federal Highway
Administration (FHWA). According to Section 312 of the Robert T. Stafford Disaster Relief and
Emergency Assistance Act, as amended, no entity will receive assistance for any loss in which
the entity has already received financial assistance from any other program, from insurance, or
from any other source. We question the $49,560, as follows:

           The County received $3,414,125 of FHWA funding for debris removal activities on
           federal-aid roads, but credited only $3,370,550 to the FEMA projects, leaving an
           unapplied balance of $43,575. We were unable to determine the methodology used
           by the County to allocate the $3,370,550 of FHWA funding to the various projects,
           and thus could not determine to which project(s) the $43,575 should be applied.
           Therefore, we question the $43,575 under Project 4725, which is the largest-dollar
           project for debris removal from federal-aid roads.

           The County claimed $5,985 under small Project 4611 for debris removal activities on
           federal-aid roads. However, the County received $5,985 of FHWA funding to cover
           the costs, but did not credit the FEMA project for the funds received. Therefore, we
           question the $5,985.

County officials disagreed with this finding. They said that they would review project files for
documentation to show the costs are eligible.




www.oig.dhs.gov                                                                           DA-13-24
                                                5

                            OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security

Finding E. Administrative Allowance

The County received $23,766 of ineligible administrative allowance funding under Project 1209.
Under Section 406 of the Robert T. Stafford Disaster Relief and Emergency Assistance Act, p.
489, as amended, the County is entitled to an administrative allowance based on a statutory
formula to cover the costs associated with requesting, obtaining, and administering FEMA
awards.2 Federal regulation 44 CFR 206.228(a)(3)(ii) limits administrative costs to that
allowance.

FEMA advanced $16,743,391 under Project 1209 for debris removal activities completed by the
County. The funding consisted of $16,619,566 for debris removal activities and $123,825 for
the administrative allowance. The County provided documentation to support the advance.
However, FEMA deobligated $16,619,566 for debris removal funding and only $100,059 for the
administrative allowance, leaving a balance of $23,766 administrative allowance obligated.
FEMA later reallocated the debris removal funding (direct costs and administrative allowance)
to other projects but mistakenly did not deobligate the $23,766 of administrative allowance
that remained for Project 1209. Therefore, we question the $23,766.

County officials agreed with this finding.


                                            RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region IV:

Recommendation #1: Instruct the State to reemphasize to the County its need to account for
FEMA project expenditures for on a project-by-project basis as required by Federal regulations
and FEMA guidelines (finding A).

Recommendation #2: Disallow $416,529 (Federal share $374,876) of unsupported contract
costs claimed (finding B).

Recommendation #3: Disallow $461,366 (Federal share $415,229) of improper contract costs,
and instruct the State to remind the County that it is required to comply with Federal
procurement standards when acquiring goods and services under FEMA awards (finding C).




2
 While Section 406(f) was used to establish management cost rates at the time of the disaster, it was repealed in
2007 when FEMA promulgated regulations at 44 CFR Part 207.



www.oig.dhs.gov                                                                                         DA-13-24
                                                        6

                        OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

Recommendation #4: Disallow $49,560 (Federal share $45,203) of debris removal activities that
were funded by the Federal Highway Administration (finding D).

Recommendation #5: Disallow $23,766 (Federal share $23,766) of ineligible administrative
allowance paid to the County (finding E).


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with County, State, and FEMA officials during our audit.
We also provided a draft report in advance to these officials and discussed it at the exit
conference held on April 29, 2013. County officials’ comments, where appropriate, are
incorporated into the body of this report.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until we receive and evaluate your response, we will consider the
recommendations as open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination.

Major contributors to this report are David Kimble, Eastern Region Audit Director;
Adrianne Bryant, Audit Manager; Helen White, Auditor-in-charge; Vilmarie Serrano, Senior
Auditor; and Jerry Aubin, Program Analyst.

Please call me with any questions at (202) 254-4100, or your staff may contact David Kimble,
Eastern Region Audit Director, at (404) 832-6702.




www.oig.dhs.gov                                                                         DA-13-24
                                               7

                                   OFFICE OF INSPECTOR GENERAL
                                                Department of Homeland Security

                                                                                                               Exhibit


                                                Schedule of Projects Audited


                                                          FEMA
 Project                                                 Category        Amount           Amount         Federal
 Number                  Project Scope                   of Work         Awarded         Questioned       Share     Finding
  4725        Debris Removal – Solid Waste Authority       A              $5,107,172      $ 43,575       $ 39,218      D
  5296        Debris Removal – Solid Waste Authority       A               4,529,860        294,123      264,711       B
  4600        Debris Removal – Solid Waste Authority       A               4,065,574
  4597        Debris Removal – Solid Waste Authority       A               3,215,175         122,406      110,165     B
  4556        Debris Removal – Solid Waste Authority       A               3,125,389
  4635        Debris Removal – Solid Waste Authority       A               2,964,097
  4704        Debris Removal – Solid Waste Authority       A               2,469,895
              Emergency Protective Measures –
  4897                                                      B               1,075,685
              Sheriff’s Dept.
              Emergency Protective Measures –
  2688                                                      B                 658,638
              Fire/Rescue
  5006        Public Buildings and Facilities               E                 730,442
  5211        Public Buildings and Facilities               E                 283,522        212,677      191,409     C
  3578        Public Buildings and Facilities               E                 224,072
  5223        Public Utilities – Authority                  F                 491,417
  5010        Recreational or Other                         G                 248,689        248,689      223,820     C
  4611        Debris Removal – SWA                          A                  23,280          5,985        5,985     D
              Debris Removal – Solid Waste
                       3                                    A                                 23,766       23,766     E
              Authority
Total                                                                    $29,212,907       $951,221      $859,074




    3
        The questioned amount is the ineligible administrative allowance costs received by the County.



    www.oig.dhs.gov                                                                                           DA-13-24
                                                                8

                       OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security

                                                                        Appendix


                                    Report Distribution

Department of Homeland Security
Secretary
Chief Financial Officer
Under Secretary for Management
Acting Chief of Privacy Officer
Audit Liaison, DHS

Federal Emergency Management Agency
Administrator
Chief of Staff
Chief Financial Office
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison, FEMA Region IV
Audit Liaison, FEMA (G-12-041-EMO-FEMA)

State
State Auditor, Florida
Executive Director, Florida Division of Emergency Management

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Subgrantee
Audit Liaison, Palm Beach County

Congress
Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform
House Committee on Transportation and Infrastructure




www.oig.dhs.gov                                                          DA-13-24
                                             9

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
